UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF IDAHO

KEITH A. BROWN,
Case No. l:17-cv-00093-CWD
Petitioner,
MEMORANDUM DECISION AND
ORDER

v.
ALBERTO RAMIREZ,
Respondent.

Pending before the Court is a Petition for Writ of Habeas Corpus filed by Idaho
prisoner Keith A. Brown (“Petitioner” or “Brown”), challenging Petitioner’s state court
convictions of voluntary manslaughter and accessory to grand theft. (Dkt. 1.) The Court
previously dismissed Claims 2 through 9 of the Petition as procedurally defaulted or
noncognizable. (Dkt. 23, 27.) Petitioner asks that the Court reconsider its dismissal of
Claims 5 and 6. (Dkt. 34.)
Additionally, Claim 1, the only remaining claim, is now fully briefed and ripe for
adjudication. The Court takes judicial notice of the records from Petitioner’s state court
proceedings, which have been lodged by Respondent. (Dkt. 10, 19, 29.) See Fed. R. Evid.
201(b); Dawson v. Mahoney, 451 F.3d 550, 551 n.l (9th Cir. 2006).
All parties have consented to the jurisdiction of a United States Magistrate Judge
to conduct all proceedings in this case in accordance with 28 U.S.C. § 636(c) and Federal
Rule of Civil Procedure 73. (Dkt. 8.) Having carefully reviewed the record in this matter,
MEMORANDUM DECISION AND ORDER - 1

including the state court record, the Court concludes that oral argument is unnecessary.
See D. Idaho L. Civ. R. 7.1(d). Accordingly, the Court enters the following Order
denying habeas corpus relief on Petitioner’s remaining claim and dismissing this case
with prejudice.
BACKGROUND
Under 28 U.S.C. § 2254(e)(1), The following facts of Petitioner’s case, as
described by the Idaho Court of Appeals, are presumed correct absent clear and
convincing evidence to the contrary:
This case began in February 2007, when Bonner County
sheriff’s officers were alerted to an abandoned truck. The
keys were with the truck, which was registered to Les Breaw,
along with Breaw’s wallet, checkbook, legal papers, and
several pieces of mail. There were no debit or credit cards in
the wallet. When officers checked at Breaw’s home, it looked
as though he had stepped out and planned to return, but the
snow-covered driveway showed no signs of recent traffic.
Concerned for Breaw’s safety, the officers began
investigating to determine when he was last seen. They were
told by a neighbor that one of Breaw’s other neighbors, Keith
Brown, was last seen hurriedly packing for a trip around the
time Breaw was last seen, and that Brown had not been seen
since. Officers also learned that neither Brown, who worked
for Breaw, nor Brown’s wife, Tyrah Brown, had picked up
their most recent paychecks. While investigating Breaw’s
recent bank card activity, officers also discovered a security
video from a local store which appeared to show Brown using
Breaw’s debit card. When the store clerk was later asked
about the incident, the clerk remembered it clearly because
Brown did not know how to use the debit card and did not
know the debit card’s pin number.
Because of the suspicious circumstances surrounding Breaw’s
and Brown’s disappearance and the possibly illegal debit card
activity, an officer applied to a magistrate for a search warrant
and a warrant to arrest Brown for theft of the debit card. The
MEMORANDUM DECISION AND ORDER - 2

officer testified in support of the warrant, and gave the
magistrate the details of the suspicious use of the debit card
and the circumstances surrounding Breaw’s and Brown’s
disappearance. He also reported to the magistrate that both
Brown and Tyrah had extensive criminal records, including
arrests for identity theft. After considering the evidence, the
magistrate found probable cause, and both a search warrant
for the Brown residence and a warrant authorizing Brown’s
arrest for grand theft were issued on February 7, 2007.
Although the arrest warrant was issued on suspicion of only
theft of the bank card, over the next few weeks officers
uncovered more incriminating information about Brown and
Tyrah, including information that an escrow check for
$50,000 payable to Breaw had been deposited into a bank
account held by Tyrah. Tyrah had opened the account on
January 22, 2007, and deposited the check two days later.
Within a week, all of the $50,000 had been withdrawn from
the account. Officers also learned that around the time of the
suspicious debit card transaction, a man and woman had gone
to some of Breaw’s renters to collect rent, allegedly on behalf
of Breaw. One renter who had paid in cash remembered the
incident because Breaw called the next day claiming that he
had never received the rent money. Officers learned from
Tyrah’s co-workers that she had made inconsistent statements
about Breaw having travel plans. She told one individual that
the Browns were going to take Breaw to the airport in Seattle,
from which he would fly to Thailand to pick up a sailboat,
and told another person that the Browns were going to drive
Breaw to Oregon.
As part of the investigation, an officer contacted Tyrah’s
mother, Rebekah Harding. Harding said that she had left with
the Browns in late January, but Brown purchased a new car in
Montana and left Harding with Brown’s old car at a hotel.
During Harding’s initial conversation with an officer on
February 8, she was reluctant to believe that anything illegal
had occurred. She said that Breaw was not missing because
he had gone to California to “dig clams” and visit his mother.
She also said that Brown had permission to use Breaw’s debit
card, and explained that Breaw was a poor bookkeeper, so the
incident with missing rent money had been a
misunderstanding. The next day, however, Harding called the
MEMORANDUM DECISION AND ORDER - 3

officer because of a phone call that she received from Tyrah
earlier that morning. Harding reported that although the
conversation started off casually, when Harding told Tyrah
that she had been questioned by a law enforcement officer the
preceding day, the phone line went dead. Harding then
suspected that Brown had done something to Breaw. Harding
eventually admitted that Brown had given her $7,000 before
leaving her in Montana.
On March 19, a body was found hidden under a pile of brush
and snow a short distance from the location where Brown’s
truck had been left. Although officers suspected that the body
was Breaw, they were not able to confirm the identity until an
autopsy on March 21. During the autopsy the missing debit
card was found in the decedent’s pocket.
On March 20, the day after the body was found, Brown was
arrested in Florida on a fugitive warrant from Idaho. Before
he was extradited to Idaho on the grand theft charge, Brown
and Tyrah were interviewed by Florida law enforcement
officials. In these interviews, the Browns made a number of
incriminating statements. When asked about Breaw’s $50,000
escrow check, Brown claimed that the money was owed to
him because of services he had rendered Breaw, but
eventually Tyrah confessed to forging Breaw’s name on the
escrow check. Tyrah also confessed to shooting Breaw and
hiding his body. According to Tyrah, she had done it because
Breaw had raped her. When Brown was told that his wife had
confessed, he also confessed to killing Breaw and told
officers that Tyrah was not there. According to Brown, he and
Breaw had gone shooting that day, and during the outing
Breaw offered Brown the escrow check so that Brown would
forgive Breaw for Breaw’s sexual misconduct with Tyrah.
Breaw continued, however, to make disparaging remarks
about Tyrah, which ultimately prompted Brown to shoot
Breaw. Brown said that he buried Breaw in the snow and hid
the murder weapon nearby. Brown even drew a map to the
gun’s location to persuade officers that Tyrah was not
involved. By the next day, however, Brown’s story had
changed. He recanted his story about killing Breaw and
instead told the Florida officers that shooting Breaw had been
an accident. He claimed that Breaw had first shot Brown in

MEMORANDUM DECISION AND ORDER - 4

the leg, which then caused Brown to accidentally shoot
Breaw in the head.
State v. Brown, 313 P.3d 751, 754-56 (Idaho Ct. App. 2013) {Brown T) (footnote
omitted); see 28 U.S.C. § 2254(e)(1).
In the First Judicial District Court in Bonner County, Idaho, Petitioner was
charged with first-degree murder and grand theft, as well as being a felon in possession of
a firearm. Petitioner filed a motion to suppress his initial statements to Florida law
enforcement officers, which the trial court denied. Pursuant to a plea agreement,
Petitioner entered an Alford plea1 to voluntary manslaughter and accessory to grant theft.
Id. at 756.
Petitioner appealed, claiming, in pertinent part, that his statements to the Florida
police were involuntary. (State’s Lodging B-l at 26 (“Mr. Brown asserts that the district
court erred when it concluded that his statements were voluntarily made in the absence of
any evidence establishing the circumstances under which those statements were
obtained.”).) The Idaho Court of Appeals held that the prosecution had failed to meet its
burden of showing that the statements were voluntary, apparently due to the prosecutor’s
mistaken belief that Petitioner, and not the state, bore the burden of proof. Brown, 313
P.3d at 759-60. However, rather than adopting Petitioner’s proposed remedy—remand
for entry of a suppression order, which would allow Petitioner to withdraw his guilty

1 See North Carolina v. Alford, 400 U.S. 25, 35 (1970) (holding that it is constitutionally permissible for a
court to accept and sentence an individual upon “a plea by which a defendant does not expressly admit his
guilt, but nonetheless waives his right to a trial and authorizes the court for purposes of the case to treat
him as if he were guilty.”).
MEMORANDUM DECISION AND ORDER - 5

plea—the court of appeals remanded the matter for further factual development at a new
suppression hearing to determine whether the statements were voluntary.
Petitioner then filed a petition for review with the Idaho Supreme Court, arguing
that the state should not be allowed a second chance to show that his incriminating
statements were voluntary. Instead, he asserted, because the prosecution had failed to
meet its burden of proof, the court of appeals should have remanded with instructions to
enter a suppression order. (State’s Lodging B-6 at 7-14.) The Idaho Supreme Court
denied the petition for review without discussion. (State’s Lodging B-7.)
The trial court held a new suppression hearing on remand. (State’s Lodging C-3.)
The videos of both of Petitioner’s police interviews, as well as the police interview of
Petitioner’s wife, were introduced at the hearing.2 {Id. at 30-32.) The trial court held that
Petitioner’s statements were voluntary and denied Petitioner’s motion to suppress.
(State’s Lodging C-l at 131-36.)
Petitioner appealed, again arguing that his statements to Florida police were
involuntary because they were coerced by the police. (State’s Lodging D-l at 8 (“Mr.
Brown asserts that his confession was the product of psychological coercion by Detective
Long, who manipulated Mr. Brown’s immense concern for his wife and any adverse
consequences to her due to her confession to the same crime.”).) The Idaho Court of
Appeals affirmed, concluding that the statements were voluntary. State v. Brown, 377

2 The video of the police interview of Petitioner’s wife was admitted at the request of Petitioner. (State’s
Lodging C-3 at 31-32.)
MEMORANDUM DECISION AND ORDER - 6

P.3d 1098 (Idaho Ct. App. 2016) (Brown II). The Idaho Supreme Court denied review.
(State’s Lodging D-5.)
Petitioner filed the instant Petition in March 2017. The Court previously dismissed
Claims 2 through 9, leaving only Claim 1 for adjudication on the merits. (See Dkt. 23,
27).
PETITIONER’S MOTION FOR RECONSIDERATION
Petitioner asks the Court to reconsider its previous dismissal of Claims 5 and 6.
The Court dismissed Claim 5 as procedurally defaulted and dismissed Claim 6 as both
procedurally defaulted and noncognizable. (Dkt. 23 at 19-27, 29-30; Dkt 27.)
The Court has the “inherent procedural power to reconsider, rescind, or modify an
interlocutory order for cause seen by it to be sufficient.” City of Los Angeles v. Santa
Monica Baykeeper, 254 F.3d 882, 885 (9th Cir. 2001) (internal quotation marks and
emphasis omitted). See Habeas Rule 12 (“The Federal Rules of Civil Procedure, to the
extent that they are not inconsistent with any statutory provisions or these rules, may be
applied to a proceeding under these rules.”). Although courts have authority to reconsider
prior orders, they “should be loath to do so in the absence of extraordinary circumstances
such as where the initial decision was ‘clearly erroneous and would work a manifest
injustice.’” Christianson v. Colt Indus. Operating Corp., 486 U.S. 800, 817 (1988)
(quoting Arizona v. California, 460 U.S. 605, 618 n. 8 (1983)).
The Court does not find sufficient cause to reconsider its dismissal of Claims 5
and 6. Petitioner’s arguments for reconsideration are not persuasive, because they

MEMORANDUM DECISION AND ORDER - 7

(1) could have been raised before the Court’s previous decision dismissing the claims,
(2) do not address the Court’s alternative basis for dismissal, or (3) constitute a mere
disagreement with the Court’s analysis—a matter for appeal, not reconsideration.
Because Petitioner has not shown that the Court’s dismissal of Claims 5 and 6 was
clearly erroneous or that it will work a manifest injustice, the motion for reconsideration
will be denied.
DISCUSSION OF CLAIM 1
Claim 1 of Petitioner’s federal habeas petition consists of two subparts.3 Claim
1(a) is the same claim Petitioner raised to the Idaho Supreme Court in his petition for
review in his initial direct appeal—that the state should not have been allowed a second
chance to prove the voluntariness of Petitioner’s statements. The Court presumes that the
Idaho Supreme Court rejected this claim on the merits when it summarily denied the
petition for review in that appeal. (State’s Lodging B-7.) See Harrington v. Richter, 562
U.S. 86, 99 (2011) (“When a federal claim has been presented to a state court and the
state court has denied relief, it may be presumed that the state court adjudicated the claim
on the merits in the absence of any indication or state-law procedural principles to the
contrary.”).
Claim 1(b) asserts that Petitioner’s statements to Florida police were involuntary
and, therefore, should have been suppressed as obtained in violation of the Fifth

3 Though the Court previously broadly referred to Claim 1 without breaking it into subparts, Respondent
correctly points out that Petitioner makes two separate, but related, arguments in Claim 1. Petitioner has
not contested Respondent’s construction of Claim 1.
MEMORANDUM DECISION AND ORDER - 8

Amendment, because (i) Petitioner was not of sound mind when he entered his plea, and
(ii) the police coerced the statements by threatening to prosecute Petitioner’s wife.4 The
Idaho Court of Appeals rejected Claim 1(b) on the merits in Petitioner’s second direct
appeal following the initial remand. Brown II, 377 P.3d at 1101-02.
For the following reasons, the Court concludes that Petitioner is not entitled to
relief on the merits of Claim 1(a) or Claim 1(b).
1.

Habeas Corpus Standard of Law
Federal habeas corpus relief may be granted when a federal court determines that

the petitioner “is in custody in violation of the Constitution or laws or treaties of the
United States.” 28 U.S.C. § 2254(a). If the state court has adjudicated a claim on the
merits, habeas relief is further limited by § 2254(d), as amended by the Anti-terrorism
and Effective Death Penalty Act of 1996 (“AEDPA”). Under AEDPA, federal habeas
relief may be granted only where the state court’s adjudication of the petitioner’s claim:
(1)

resulted in a decision that was contrary to, or
involved an unreasonable application of, clearly
established Federal law, as determined by the
Supreme Court of the United States; or

(2)

resulted in a decision that was based on an
unreasonable determination of the facts in light
of the evidence presented in the State court
proceeding.

4 Though the Petition itself expressly asserts only the first basis of the claim of involuntariness, the Court
construes Claim 1(b) as also including the argument that police coerced the statements by threatening to
prosecute Petitioner’s wife. Respondent has addressed the coercion sub-claim in briefing, and Petitioner
raised both sub-claims in his second direct appeal following the new suppression hearing. (State’s
Lodging D-l at 13-14 (“Mr. Brown submits that the totality of the circumstances demonstrates Detective
Long took advantage of Mr. Brown’s vulnerable mental state and his desire to protect his wife after her
rape, miscarriage, and possible criminal charges to obtain his confession.”).)
MEMORANDUM DECISION AND ORDER - 9

28 U.S.C. § 2254(d). “Deciding whether a state court’s decision involved an
unreasonable application of federal law or was based on an unreasonable determination
of fact requires the federal habeas court to train its attention on the particular reasons—
both legal and factual—why state courts rejected a state prisoner’s federal claims and to
give appropriate deference to that decision.” Wilson v. Sellers, 138 S. Ct. 1188, 1191-92
(2018) (internal quotation marks and citations omitted).
When a party contests the state court’s legal conclusions, including application of
the law to the facts, § 2254(d)(1) governs. That section consists of two alternative tests:
the “contrary to” test and the “unreasonable application” test.
Under the first test, a state court’s decision is “contrary to” clearly established
federal law “if the state court applies a rule different from the governing law set forth in
[the Supreme Court’s] cases, or if it decides a case differently than [the Supreme Court]
[has] done on a set of materially indistinguishable facts.” Bell v. Cone, 535 U.S. 685, 694
(2002). Under the second test, to satisfy the “unreasonable application” clause of
§ 2254(d)(1), the petitioner must show that the state court—although identifying “the
correct governing legal rule” from Supreme Court precedent—nonetheless “unreasonably
appliefd] it to the facts of the particular state prisoner’s case.” Williams (Terry) v. Taylor,
529 U.S. 362, 407 (2000). “Section 2254(d)(1) provides a remedy for instances in which
a state court unreasonably applies [Supreme Court] precedent; it does not require state
courts to extend that precedent or license federal courts to treat the failure to do so as
error.” White v. Woodall, 134 S. Ct. 1697, 1706 (2014) (emphasis omitted).

MEMORANDUM DECISION AND ORDER - 10

A federal court cannot grant habeas relief simply because it concludes in its
independent judgment that the decision is incorrect or wrong; rather, the state court’s
application of federal law must be objectively unreasonable to warrant relief. Lockyer v.
Andrade, 538 U.S. 63, 75 (2003); Bell, 535 U.S. at 694. If there is any possibility that
fair-minded jurists could disagree on the correctness of the state court’s decision, then
relief is not warranted under § 2254(d)(1). Richter, 562 U.S. at 102. The Supreme Court
has emphasized that “even a strong case for relief does not mean the state court’s
contrary conclusion was unreasonable.” Id. To be entitled to habeas relief under
§ 2254(d)(1), “a state prisoner must show that the state court’s ruling on the claim being
presented in federal court was so lacking in justification that there was an error well
understood and comprehended in existing law beyond any possibility for fairminded
disagreement.” Id. at 103.
AEDPA deference is required even where, as here, the highest state court denied
the petitioner’s claim without expressly addressing it. In such a case, the Court must
“Took through’ the unexplained decision to the last related state-court decision that...
provide[s] a relevant rationale.” Wilson, 138 S. Ct. at 1192. The Court may then
presume—though this presumption can be rebutted—that “the unexplained decision
adopted the same reasoning.” Id.
If there is no reasoning'provided by any state court, the Court presumes that the
state court adjudicated all fairly-presented claims on the merits unless there is some
“indication or state-law procedural principle^ to the contrary.” Richter, 562 U.S. at 99.

MEMORANDUM DECISION AND ORDER - 11

When a court applies the Richter presumption, it must, “conduct an independent review of
the record to determine what arguments or theories could have supported the state court’s
decision”; the court must then determine “whether it is possible fairminded jurists could
disagree that those arguments or theories are inconsistent with the holding in a decision
of the Supreme Court.” Bemore v. Chappell, 788 F.3d 1151, 1161 (9th Cir. 2015)
(internal quotation marks and alterations omitted); see also Rowland v. Chappell, 876
F.3d 1174, 1181 (9th Cir. 2017) (“Independent review of the record is not de novo review
of the constitutional issue, but rather, the only method by which we can determine
whether a silent state court decision is objectively unreasonable.” (internal quotation
marks and citation omitted)). A summary decision of a state court is entitled to
“meaningful deference,” and a federal court must “consider reasonable grounds that
could have supported” that decision. Sexton v. Beaudreaux, 138 S. Ct. 2555, 2557 (2018)
(per curiam).
Though the source of clearly established federal law must come only from the
holdings of the United States Supreme Court, circuit precedent may be persuasive
authority for determining whether a state court decision is an unreasonable application of
Supreme Court precedent. Duhaime v. Ducharme, 200 F.3d 597, 600-01 (9th Cir. 2000).
However, circuit law may not be used “to refine or sharpen a general principle of
Supreme Court jurisprudence into a specific legal rule that th[e] Court has not
announced.” Marshall v. Rodgers, 569 U.S. 58, 64 (2013).

MEMORANDUM DECISION AND ORDER - 12

“[R]eview under § 2254(d)(1) is limited to the record that was before the state
court that adjudicated the claim on the merits.” Cullen v. Pinholster, 563 U.S. 170, 180
(2011). Therefore, evidence that was not presented to the state court cannot be introduced
on federal habeas review if a claim was adjudicated on the merits in state court and if the
underlying factual determinations of the state court were reasonable. See Murray v.
Schriro, 745 F.3d 984, 999-1000 (9th Cir. 2014); (“After Pinholster, a federal habeas
court may consider new evidence only on de novo review, subject to the limitations of
§ 2254(e)(2).”); Hurles v. Ryan, 752 F.3d 768, 778 (9th Cir. 2014) (“If we determine,
considering only the evidence before the state court, that the adjudication of a claim on
the merits ... was based on an unreasonable determination of the facts, we evaluate the
claim de novo, and we may consider evidence properly presented for the first time in
federal court.”).
To be eligible for relief under § 2254(d)(2), the petitioner must show that the state
court decision was based upon factual determinations that were “unreasonable ... in light
of the evidence presented in the State court proceeding.” A “state-court factual
determination is not unreasonable merely because the federal habeas court would have
reached a different conclusion in the first instance.” Wood v. Allen, 558 U.S. 290, 301
(2010); see also Schriro v. Landrigan, 550 U.S. 465, 473 (2007) (“The question under .
AEDPA is not whether a federal court believes the state court’s determination was
incorrect but whether that determination was unreasonable—a substantially higher
threshold.”). State court factual findings are presumed to be correct and are binding on

MEMORANDUM DECISION AND ORDER - 13

the federal court unless the petitioner rebuts this presumption by clear and convincing
evidence. 28 U.S.C. § 2254(e)(1).
If a petitioner satisfies § 2254(d)—either by showing that the state court’s
adjudication of the claim was contrary to, or an unreasonable application of Supreme
Court precedent or by establishing that the state court’s factual findings were
unreasonable—then the federal habeas court must review the petitioner’s claim de novo,
meaning without deference to the state court’s decision. Hurles, 752 F.3d at 778. De novo
review is also required where the state appellate court did not decide a properly-asserted
claim or where an adequate excuse for the procedural default of a claim exists. Pirtle v.
Morgan, 313 F.3d 1160, 1167 (9th Cir. 2002); Dickens v. Ryan, 740 F.3d 1302, 1321 (9th
Cir. 2014) (en banc).
When considering a habeas claim de novo, a district court may, as in the preAEDPA era, draw from both United States Supreme Court and well as circuit precedent,
limited only by the non-retroactivity rule of Teague v. Lane, 489 U.S. 288 (1989). Even
under de novo review, however, if the factual findings of the state court are not
unreasonable under § 2254(d)(2), the Court must apply the presumption of correctness
found in 28 U.S.C. § 2254(e)(1) to any facts found by the state courts. Pirtle, 313 F.3d at
1167-68. Conversely, if a state court factual determination is unreasonable, the federal
court is not limited by § 2254(e)(1) and may consider evidence outside the state court
record, except to the extent that § 2254(e)(2) might apply. Murray v. Schriro, 745 F.3d at
1000.

MEMORANDUM DECISION AND ORDER - 14

Even if a petitioner succeeds in demonstrating a constitutional error in his
conviction, he is entitled to federal habeas relief only if the petitioner “can establish that
[the error] resulted in ‘actual prejudice.’” Brecht v. Abrahamson, 507 U.S. 619, 637
(1993). Under the Brecht standard, an error is not harmless, and habeas relief must begranted, only if the federal court has “grave doubt about whether a trial error of federal
law had substantial and injurious effect or influence in determining the jury’s verdict.”
O’Neal v. McAninch, 513 U.S. 432, 436 (1995) (internal quotation marks omitted).
2.

Clearly Established Law Governing Claim 1
The introduction at trial of an involuntary confession violates the Constitution’s

protection against compelled self-incrimination. U.S. Const., amend. V, XIV. Therefore,
if a statement made by a defendant was coerced by police, the statement may not be used
against the defendant at trial. Colorado v. Connelly, 479 U.S. 157, 167 (1986) (“We hold
that coercive police activity is a necessary predicate to the finding that a confession is not
‘voluntary’ within the meaning of the Due Process Clause of the Fourteenth
Amendment.”).
If a statement is “the product of an essentially free and unconstrained choice by its
maker,” then it is voluntary. Schneckloth v. Bustamonte, 412 U.S. 218, 225 (1973).
Conversely, a statement is involuntary if the defendant’s “will [was] overborne and his
capacity for self-determination critically impaired.” Id. The prosecution has the burden of
establishing the voluntariness of the challenged statement. Lego v. Twomey, 404 U.S.
477, 489 (1972) (“[W]hen a confession [is] challenged as involuntary..., the prosecution
must prove.. .by a preponderance of the evidence that the confession was voluntary.”).
MEMORANDUM DECISION AND ORDER - 15

Unconstitutional police coercion “can be mental as well as physical, and the blood of the
accused is not the only hallmark of an unconstitutional inquisition.” Arizona v.
Fulminante, 499 U.S. 279, 287 (1991) (internal quotation marks and alteration omitted).
The question of whether a statement is involuntary due to coercive police activity
requires consideration of the “totality of all the surrounding circumstances—both the
characteristics of the accused and the details of the interrogation.” Bustamonte, 412 U.S.
at 226. Relevant factors include the following: (1) the youth of the accused; (2) the
intelligence and level of education of the accused; (3) the lack of advice regarding the
accused’s constitutional rights, such as Miranda warnings; (4) the length of the detention,
(5) the “repeated and prolonged nature of the questioning”; and (6) “the use of physical
punishment such as the deprivation of food or sleep.” Id. Though none of these factors is
dispositive, the presence or absence of Miranda warnings is especially significant. See
Berkemer v. McCarty, 468 U.S. 420, 433 n.20 (1984) (“We do not suggest that
compliance with Miranda conclusively establishes the voluntariness of a subsequent
confession. But cases in which a defendant can make a colorable argument that a selfincriminating statement was ‘compelled’ despite the fact that the law enforcement
authorities adhered to the dictates of Miranda are rare.”).
3.

The Idaho Supreme Court’s Rejection of Claim 1(a) Was Not Unreasonable
under AEDPA
Petitioner presented Claim 1(a) to the Idaho Supreme Court, which summarily

denied the petition for review. The Idaho Court of Appeals did not consider the claim,
nor could Petitioner raise it before that intermediate appellate court, because the factual
MEMORANDUM DECISION AND ORDER - 16

basis for the claim did not exist until the Court of Appeals issued its decision remanding
the case for a new suppression hearing. Because there is no indication of any state-law
procedural principle that would have applied to bar the claim, the Court presumes that the
Idaho Supreme Court rejected Claim 1(a) on the merits. See Richter, 562 U.S. at 99.
The Idaho Court of Appeals agreed with Petitioner that the prosecution had failed
to meet its burden of proof to show that Petitioner’s statements to Florida police were
voluntary. The court found that the prosecutor mistakenly believed that Petitioner bore
the burden of proof, because the prosecutor pointed out the absence of evidence regarding
the interrogation and “presented no evidence about the circumstances of the
interrogations or Brown’s mental acuity at the time.” Brown I, 313 P.3d at 759. The court
also noted that Petitioner had not specifically argued that the police engaged in coercive
tactics—a requirement for exclusion of the statements, see Connelly, 479 U.S. at 167—
but rather only that Petitioner was of “unsound mind” and “incompetent” at the time of
the interrogation. Id. at 758.
The state court held that, even though it was the prosecution’s burden to prove
voluntariness, the lack of any evidence of police coercion in the record did not justify a
remand to vacate the guilty plea and issue an immediate suppression order. Instead, the
court remanded for a new suppression hearing to determine whether Petitioner’s
statements were voluntary:
Although we are mindful that it was the State which failed in
its burden of proof, we are unwilling to hold that Brown is
thereby entitled to a windfall in the form of a suppression
order in the absence of any allegation or evidence that the
MEMORANDUM DECISION AND ORDER - 17

Florida police used coercive tactics. As we said in State v.
Bower, 135 Idaho 554, 558, 21 P.3d 491, 495 (Ct. App.
2001): “Use of the exclusionary rule imposes a price upon
society in that it often enables the guilty to escape
prosecution. Therefore, the exclusionary rule should be
employed only when there has in fact been a violation of the
defendant’s constitutional rights.” An evidentiary vacuum
does not enable a court to make the necessary findings. In this
circumstance, we are constrained to vacate the order denying
Brown’s suppression motion and remand for a new hearing at
which, presumably, the State will present some relevant
evidence bearing upon the voluntariness or involuntariness
of Brown’s statements to Florida officers. If, on remand, the
district court grants Brown’s suppression motion, he must be
allowed the opportunity to withdraw his guilty plea and have
his judgment of conviction set aside. If however, on remand,
the court denies the suppression motion, Brown’s guilty plea
and judgment of conviction need not be disturbed. Because
the issue has come before this Court on a conditional plea
preserving Brown’s right to appeal the denial of his
suppression motion, we expressly state that because we are
remanding for further proceedings on the motion, Brown has
not yet “prevailed” on this issue. That is, we are not granting
suppression of Brown’s confessions, which is the relief he
sought in this appeal. Therefore, he has no immediate right to
withdraw his plea ....
Brown, 313 P.3d at 759-60.
Petitioner argues that there is “no case authority that provides to the State a second
chance to prove voluntariness.” (Dkt. 31 at 5.) However, that is not the question under
AEDPA. Instead, this Court must ask whether United States Supreme Court precedent
clearly establishes that the Constitution prohibits an appellate court from doing so. The
Court has not found any Supreme Court case prohibiting a state appellate court from
remanding a case for a new suppression hearing if the prosecution failed initially to meet
its burden of showing that a confession was voluntary. Therefore, the Idaho Supreme

MEMORANDUM DECISION AND ORDER - 18

Court’s decision was not unreasonable under § 2254(d), and Petitioner is not entitled to
relief on Claim 1(a).
4.

The Idaho Court of Appeals’ Rejection of Claim 1(b) Was Not Unreasonable
under AEDPA
Claim 1(b) asserts that Petitioner’s statements to the police were involuntary

because (i) he was mentally ill and (ii) police coerced the statements by threatening to
prosecute Petitioner’s wife.
In claiming involuntariness arising from his mental state, Petitioner relies on the
fact that he had been committed to a mental hospital and found to be incompetent to stand
trial. Claim l(b)(i) fails on the merits—and would under any standard of review, whether
AEDPA deference or de novo—because “coercive police activity is a necessary predicate
to the finding that a confession is not ‘voluntary’ within the meaning of the Due Process
Clause of the Fourteenth Amendment. Connelly, 479 U.S. at 167.
The defendant in Connelly approached a police officer without prompting and
confessed to murder. He claimed that he heard voices telling him that he should confess.
The Supreme Court held that the confession was voluntary and could be used against the
defendant at trial: “Absent police conduct causally related to the confession, there is
simply no basis for concluding that any state actor has deprived a criminal defendant of
due process of law.” Id. at 164. Because Petitioner’s impaired mental health was not
caused by police conduct, Petitioner is not entitled to relief on Claim l(b)(i).
As for Claim l(b)(ii), asserting that the threats to prosecute Petitioner’s wife
constituted police coercion rendering the statements involuntary, the Idaho Court of

MEMORANDUM DECISION AND ORDER - 19

Appeals concluded that the totality of the circumstances showed that Petitioner’s will was
not overborne. The court relied on two of its previous decisions for the proposition that “a
suspect’s confession is not involuntary merely because it was motivated by the desire to
prevent a good faith arrest of a loved one” and that a threat of prosecution can point
toward a finding of involuntariness only if the threat is unjustified as unsupported by
probable cause. Brown II, 377 P.3d at 1101.
Noting that Petitioner’s wife had confessed to killing Breaw and hiding the body,
the state court held that the threat to prosecute her was justified. The court also relied on
the trial court’s findings at the suppression hearing to conclude that the statements were
voluntary considering the totality of the circumstances:
[T]he district court concluded that the State met its burden of
proving Brown's statements were voluntary. The court found
the facts of the interrogation itself weighed in favor of
voluntariness: Brown was given Miranda warnings; he was
not deprived of food or sleep; the interrogation was not
unduly long; and the interrogating officer was “low key” and
nonthreatening. The court also found that Brown's
intelligence and psychological characteristics weighed in
favor of voluntariness. As to Brown's claim that his
statements were involuntary due to the interrogating officer's
threats to arrest Brown's wife if he did not confess, the court
found that any such threat, either express or implied, would
have been made in good faith, and thus would not render
Brown's confession involuntary.
Brown II, 317 P.3d at 1100-01. The state appellate court found that—other than the
threat to prosecute Petitioner’s wife—the police had not engaged in any potentially
coercive behavior. Therefore, “[ajbsent any other evidence of police coercion, Brown’s

MEMORANDUM DECISION AND ORDER - 20

self-incriminating statements were not involuntary merely because they were motivated
by his desire to protect his wife from prosecution.” Id. at 1101-02.
The Idaho Court of Appeals’ rejection of Claim l(b)(ii) was not contrary to, or an
unreasonable application of, clearly established Supreme Court precedent, nor was it
based on an unreasonable determination of the facts. See 28 U.S.C. § 2254(d). The court
correctly identified the relevant factors as set forth in Bustamonte and Fulminate and
considered those factors. Most significantly, Petitioner was informed of his Miranda
rights. The interrogation lasted less than two hours, and the interviewing detective’s
manner was, indeed, quite “low key.” Therefore, Petitioner is not entitled to relief on
Claim l(b)(ii).
CONCLUSION
For the foregoing reasons, the Court will not reconsider its dismissal of Claims 5
and 6 and will deny Claim 1 on the merits.
ORDER
IT IS ORDERED:
1.

Petitioner’s motion for reconsideration (construed as included in Dkt. 34),
is DENIED.

2.

Claim 1 of the Petition (Dkt. 1) is DENIED.

3.

The Court does not find its resolution of this habeas matter to be reasonably
debatable, and a certificate of appealability will not issue. See 28 U.S.C.
§ 2253(c); Rule 11 of the Rules Governing Section 2254 Cases. If

MEMORANDUM DECISION AND ORDER - 21

Petitioner wishes to appeal, he must file a timely notice of appeal with the
Clerk of Court. Petitioner may seek a certificate of appealability from the
Ninth Circuit by filing a request in that court.

Cp,

DATED: November 19, 2019

Honorable Candy W. Dale
United States Magistrate Judge

MEMORANDUM DECISION AND ORDER - 22

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF IDAHO

KEITH A. BROWN,
Case No. l:17-cv-00093-CWD
Petitioner,
JUDGMENT
v.
ALBERTO RAMIREZ,
Respondent.

In accordance with the Memorandum Decision and Order filed on this date, as
well as the Court’s decisions dated March 26, 2018 (Dkt. 23) and June 22, 2018 (Dkt.
27), IT IS ORDERED, ADJUDGED, and DECREED that the Petition for Writ of Habeas
Corpus is DISMISSED IN PART and DENIED IN PART, and judgment is entered in
favor of Respondent. In addition, this case is hereby ordered closed.

DATED: November 19; 2019

Honorable Candy W. Dale
United States Magistrate Judge

:

:

;

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
JUN 12 2020
MOLLY C. DWYER, CLERK
U S. COURT OF APPEALS

KEITH A. BROWN,
Petitioner-Appellant,
v.
ALBERTO RAMIREZ,

No.

19-36057

D.C.No. l:17-cv-00093-CWD
District of Idaho,
Boise
ORDER

Respondent-Appellee.
Before:

TROTT and N.R. SMITH, Circuit Judges.

The request for a certificate of appealability (Docket Entry No. 4) is denied
because appellant has not shown that “jurists of reason would find it debatable
whether the petition states a valid claim of the denial of a constitutional right and
that jurists of reason would find it debatable whether the district court was correct
in its procedural ruling.” Slack v. McDaniel, 529 U.S. 473, 484 (2000); see also 28
U.S.C. § 2253(c)(2); Gonzalez v. Thaler, 565 U.S. 134, 140-41 (2012); Miller-El v.
Cockrell, 537 U.S. 322, 327 (2003).
Any pending motions are denied as moot.
DENIED.

Exhibit C

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
AUG 6 2020
MOLLY C. DWYER, CLERK
U S. COURT OF APPEALS

KEITH A. BROWN,
Petitioner-Appellant,
v.
ALBERTO RAMIREZ,

No.

19-36057

D.C.No. 1:17-cv-00093-CWD
District of Idaho,
Boise
ORDER

Respondent-Appellee.
Before:

McKEOWN and BADE, Circuit Judges.

Appellant’s motion for reconsideration (Docket Entry No. 10) is denied. See
9th Cir. R. 27-10.
No further filings will be entertained in this closed case.

Additional material
from this filing is
available in the
Clerk's Office.

